No. _ _ _ _ __

IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2019

ROBERT L. ROSE,
Petitioner,

v.
UNITED STATES OF AMERICA,
Respondent.

MOTION TO PROCEED IN FORMA PAUPERIS
The Petitioner, Robert L. Rose, through Counsel, requests that this Honorable Court allow
him to proceed in forma pauperis. In support of his Motion, Petitioner represents as follows:
Appellate Counsel, David F. Ness, Assistant Federal Defender, and the Federal Defenders
of Montana, Inc., representing Petitioner before this Honorable Court, were appointed pursuant to
18

u.s.c. ยง 3006A.
DATED this 16th day of September, 2020.

Federal Defender for the District of Montana
*DAVID F. NESS,
Assistant Federal Defender
Federal Defenders of Montana
104 Second Street South, Suite 301
Great Falls, MT 59401
Telephone: (406) 727-5328
Fax: (406) 727-4329
*Counsel of Petitioner

